<html>
<title> - [H.A.S.C. No. 111-125]ENERGY MANAGEMENT AND INITIATIVES ON MILITARY INSTALLATIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-125]
 
      ENERGY MANAGEMENT AND INITIATIVES ON MILITARY INSTALLATIONS

                               __________

                                HEARING

                               BEFORE THE

                         READINESS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 24, 2010


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
57-834                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             J. RANDY FORBES, Virginia
SILVESTRE REYES, Texas               ROB BISHOP, Utah
JIM MARSHALL, Georgia                MIKE ROGERS, Alabama
MADELEINE Z. BORDALLO, Guam          TRENT FRANKS, Arizona
HANK JOHNSON, Georgia                BILL SHUSTER, Pennsylvania
CAROL SHEA-PORTER, New Hampshire     K. MICHAEL CONAWAY, Texas
JOE COURTNEY, Connecticut            DOUG LAMBORN, Colorado
DAVID LOEBSACK, Iowa                 ROB WITTMAN, Virginia
GABRIELLE GIFFORDS, Arizona          MARY FALLIN, Oklahoma
GLENN NYE, Virginia                  JOHN C. FLEMING, Louisiana
LARRY KISSELL, North Carolina        FRANK A. LoBIONDO, New Jersey
MARTIN HEINRICH, New Mexico          MICHAEL TURNER, Ohio
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
DAN BOREN, Oklahoma
                Eryn Robinson, Professional Staff Member
                Lynn Williams, Professional Staff Member
                    Katy Bloomberg, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, February 24, 2010, Energy Management and Initiatives 
  on Military Installations......................................     1

Appendix:

Wednesday, February 24, 2010.....................................    27
                              ----------                              

                      WEDNESDAY, FEBRUARY 24, 2010
      ENERGY MANAGEMENT AND INITIATIVES ON MILITARY INSTALLATIONS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Ranking 
  Member, Readiness Subcommittee.................................     3
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1

                               WITNESSES

Hansen, L. Jerry, Army Senior Energy Executive, Senior Official 
  Performing Duties as the Assistant Secretary of the Army for 
  Installations and Environment, U.S. Department of the Army.....     7
Natsuhara, Roger M., Acting Assistant Secretary of the Navy for 
  Installations, Environment and Logistics, U.S. Department of 
  the Navy.......................................................     9
Robyn, Dr. Dorothy, Deputy Under Secretary of Defense for 
  Installations and Environment, U.S. Department of Defense......     4
Tune, Debra K., Performing the Duties of Assistant Secretary of 
  the Air Force for Installations, Environment and Logistics, 
  U.S. Department of the Air Force...............................    11

                                APPENDIX

Prepared Statements:

    Forbes, Hon. J. Randy........................................    38
    Hansen, L. Jerry.............................................    51
    Natsuhara, Roger M...........................................    67
    Ortiz, Hon. Solomon P........................................    31
    Robyn, Dr. Dorothy...........................................    42
    Tune, Debra K................................................    82

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Shea-Porter..............................................    95
    Mr. Taylor...................................................    95

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   100
    Ms. Giffords.................................................   101
    Mr. Marshall.................................................    99
    Mr. Ortiz....................................................    99
      ENERGY MANAGEMENT AND INITIATIVES ON MILITARY INSTALLATIONS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                      Washington, DC, Wednesday, February 24, 2010.
    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon P. Ortiz 
(Chairman of the Subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. Good afternoon. This hearing will come to order. 
I thank our distinguished witnesses for appearing before this 
subcommittee today to discuss energy management and initiatives 
on military installations.
    Today's hearing is one of several held by this Subcommittee 
relating to the Department of Defense (DOD) energy posture. We 
have heard from the Defense Science Board's Energy Security 
Task Force, the Government Accountability Office (GAO), and the 
Office of the Under Secretary of Defense for Acquisition, 
Technology and Logistics on a broad range of energy issues.
    Today's hearing will focus on the many energy initiatives 
underway on military installations and the overarching 
strategies that guide these initiatives.
    In many ways, through these strategies and initiatives, the 
Department has assumed a leadership role in addressing our 
Nation's energy challenges. Each of the military services and 
the Office of the Secretary of Defense (OSD) have worked to 
develop energy strategies and goals. Capping these efforts off, 
the 2010 Quadrennial Defense Review (QDR) identifies energy and 
its sister issue, climate change, as two key agents that will 
play a significant role in shaping the future of national 
security and the environment.
    The military services have demonstrated a willingness to be 
early adopters of new technologies and enablers of renewable 
and alternative energy projects. They have started to lease 
electrical vehicles and they work towards net zero 
installations, adopt advanced metering technologies, 
investigate microgrid technologies, and partner with the 
private sector to develop wind, solar, geothermal and waste-to-
energy systems, just to name a few.
    Initiatives are accelerating not only in variety but in 
size. When it was completed in 2010, the 14.2 megawatt solar 
array at Nellis Air Force Base was the largest such array in 
the Americas. Today, another military installation is 
contemplating partnering on a solar project 35 times larger. 
This project would encompass as much as 14,000 acres and 
provide 500 megawatts of solar energy to the installation and 
to the grid.
    Now, this is an exciting prospect. However, in a recent 
report conducted at this Subcommittee's request, the Government 
Accountability Office recognized that development of renewable 
energy projects is not always compatible with the primary 
mission of a DOD installation. I would like to hear what steps 
the Department has taken to ensure that large-scale energy 
projects on military installations don't eventually impede a 
base's primary mission or result in another form of 
encroachment.
    While the Department's initiatives have been accelerating 
at military installations, outside defense private-sector 
initiatives have been, too. The number of domestic renewable 
energy projects such as wind farms, solar power and arrays has 
been increasing significantly in recent years. These projects 
have great potential to enhance our energy security.
    At the same time, I am concerned to learn that some of 
these energy projects, particularly large wind farms and solar 
towers, may have the potential to impair military readiness. 
Recent tests conducted by the Department of Defense and recent 
experiences at some military installations show that windmills 
can significantly affect radar performance, can obstruct 
military training routes, and can interfere with military 
systems designed to operate in the electromagnetic spectrum. 
These are significant challenges that we must address. It is 
important that we understand how to balance energy security and 
military readiness because our Nation needs both.
    I look forward to hearing the perspective of our 
distinguished witnesses today on these and other issues of 
interest to the Subcommittee.
    But before I recognize my good friend, Mr. Forbes, the 
distinguished Ranking Member, I would like to speak for one 
brief moment on a topic that we will not focus on today, but 
that is important and related, and that is operational energy.
    Now, this Subcommittee created a new office for a Director 
for Operational Energy to advise the Secretary of Defense and 
oversee energy the Department uses for military operations. 
Now, I believe that a nominee has been selected and I am 
hopeful that her Senate confirmation will happen quickly. It is 
imperative that we round out the Department's energy team with 
this key official dedicated to operational energy oversight.
    With that said, I look forward to the thoughtful testimony 
on installation energy management and initiatives from the 
distinguished witnesses we have here today.
    The Chair now recognizes the distinguished gentleman from 
Virginia, my good friend, Mr. Forbes, for any remarks he may 
like to make.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 31.]

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
        VIRGINIA, RANKING MEMBER, READINESS SUBCOMMITTEE

    Mr. Forbes. Mr. Chairman, thank you, as always, for your 
service for holding this hearing. I want to thank all of our 
witnesses for their time and sharing their expertise with us 
today. The timing of this hearing is certainly excellent.
    Whatever your views are on global warming and the benefits 
of clean energy, there are certainly a few things that are 
clear:
    One, that the cost and risk of an exclusive reliance on 
petroleum energy sources grows with each passing year.
    Two, we should use renewable sources when it is cost-
competitive and when it enhances or, at a minimum, does not 
detract from our military readiness.
    Lastly, renewable resources can greatly increase the energy 
security of our national military installations.
    My primary interest today, however, is not only to learn 
about goals to expand green energy in the military, but also to 
understand how realistic and achievable each of the goals are.
    For instance, net zero energy consuming installations is a 
laudable goal from a cost savings and energy security 
viewpoint. But the question is: Is it achievable? What will we 
have to give up in the short run or the long run to reach this 
goal?
    I believe it is critical to address two serious flaws in 
the rush to push green energy on military installations:
    First, there seems to be no shortage of good ideas and 
mandates that are placed on the Department of Defense by both 
the White House and Congress without either an integrated plan 
or an evaluation system to ensure we are meeting the stated 
objectives. The list of mandates includes specific substantial 
goals for hybrid vehicles, greenhouse gas emissions, solar 
energy use and reduction goals for petroleum use and overall 
reductions in energy use. Meeting just a few of the goals would 
be daunting. Before we add more mandates, we should agree on 
our key objectives. Is it total energy security for each 
installation so that our energy sources are not ever in 
question? Is the goal to ensure at least 50 percent of our 
energy comes from renewable energy sources? To my knowledge, 
there is no comprehensive Departmental plan beyond saving what 
we can, where we can.
    My second concern is the impact renewable energy products 
have on military training. Solar projects can spread across 
vast areas of valuable military training land and limit 
military training, particularly military aviation. Even more 
troubling are wind turbines. These giant devices not only 
present hazards near military airfields, but they also alter 
military aviation training routes across the country and can 
adversely affect military training and air defense radars.
    Despite these acknowledged drawbacks, wind farms are being 
funded at breakneck speed by stimulus funding within a porous 
regulatory oversight structure. Any large undertaking that 
substantially alters land, sea or airspace, must undergo 
thorough scrutiny for military training impacts as well as 
other environmental concerns. Military training land and 
airspace is extraordinarily difficult to acquire, so we must 
preserve and protect what we have.
    Mr. Chairman, I also believe we must expand our use of 
renewable energy, and I have introduced legislation and 
supported legislation that moves us in this direction. But like 
any laudable goal, the marginal cost of any approach must be 
considered. We must be careful that our national enthusiasm for 
clean energy does not negatively affect military readiness. We 
must do a better job of fully considering the long-term 
consequences of our actions. In my view, the Pentagon's energy 
goals must be realistic, compatible with military training, 
advance the goal of energy security, and be a part of a 
comprehensive Department-wide plan.
    I would like to hear how our witnesses intend to achieve 
those objectives. And, once again, thank you all for taking 
your time and being here.
    Mr. Chairman, thank you for scheduling this hearing.
    With that, I yield back the balance of my time.
    Mr. Ortiz. Thank you.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 38.]
    Mr. Ortiz. Today we are fortunate to have a panel of 
witnesses representing the Department of Defense, the 
Departments of the Army, the Navy and Air Force. We have with 
us Dr. Dorothy Robyn. Doctor, good to see you again and 
welcome. She is the Deputy Under Secretary of Defense for 
Installations and Environment.
    Mr. L. Jerry Hansen, Army Senior Energy Executive and 
senior official performing duties as the Assistant Secretary of 
the Army for Installations and Environment.
    Mr. Roger Natsuhara, good to see you again, sir. Good to 
see you yesterday and see you back again. He is the Acting 
Assistant Secretary of the Navy for Installations and 
Environment and Logistics.
    Mrs. Debra K. Tune, performing the duties of the Assistant 
Secretary of the Air Force for Installations, Environment and 
Logistics.
    Without objection, the witnesses' prepared testimony will 
be accepted for the record.
    Mr. Ortiz. Dr. Robyn, welcome. You may proceed with your 
opening remarks.

   STATEMENT OF DR. DOROTHY ROBYN, DEPUTY UNDER SECRETARY OF 
 DEFENSE FOR INSTALLATIONS AND ENVIRONMENT, U.S. DEPARTMENT OF 
                            DEFENSE

    Dr. Robyn. Thank you very much, Chairman Ortiz, Congressman 
Forbes, and other distinguished members. It is a real pleasure 
to testify today on the Department of Defense's strategy for 
improving energy management at military installations.
    As you know, the Department operates more than 500 
permanent installations overseas and in the United States. They 
contain more than 300,000 buildings and 2 billion square feet 
of space. That means our footprint is 4 times that of Wal-Mart 
and 10 times that of the General Services Administration (GSA).
    I want to make three key points today. The first is that 
management of installation energy is an extremely important 
issue, and we are all grateful to you for having this hearing 
and giving us an opportunity to talk about it and talk to you. 
Facilities energy represents a significant cost. That is the 
first reason it is such an important issue.
    In 2009, we spent close to $4 billion as a Department to 
power our facilities. That is about 30 percent of our total 
energy bill, and that percentage is higher during peacetime 
when our operational energy bill is lower. Moreover, our 
installation energy needs will increase over the next several 
years as we grow the Army and the Marine Corps and reduce our 
presence overseas and bring troops and equipment back.
    In addition to the cost of installation energy, it matters 
because of its importance to mission assurance, as your opening 
statements have discussed. Many experts believe that the 
commercial power grid is vulnerable to disruption from cyber 
attacks, natural disasters and sheer overload, and since our 
installations rely on this grid, critical missions may be at 
risk.
    The second key point I want to make is that there are 
impediments to improving the way we manage energy on our 
installations. The key impediment is flawed economic 
incentives.
    Let me mention two examples. Mr. Chairman, you referred to 
the Defense Science Board Report. I am taking those examples 
right out of that. What I got was an outstanding report.
    One incentive problem is referred to as split incentives. 
This arises because energy efficiency typically requires an 
increase in capital investment, but it yields savings over time 
in operation and maintenance. That leads to under-investment in 
energy efficiency when one organization or individual within 
the Department of Defense is in charge of investment and 
capital and another is in charge of operation and maintenance. 
So there is a divergence between the incentives that they face.
    A second example of flawed incentives is the commander who 
succeeds in reducing energy consumption but cannot keep the 
savings, which is typical. In fact, his or her budget is 
typically reduced as a result of the good behavior. The 
military departments have developed mechanisms to offset this 
disincentive to energy conservation, but they are limited in 
scope.
    Now, despite these impediments, the Department has 
noticeably improved its energy performance over the last five 
years, largely in response to statutory and regulatory goals. 
However, in the last year, the Department has stepped up the 
level of effort even beyond what it has been, and that is my 
third key point. And I want to talk about just the key elements 
of what we are doing.
    The first key element is commitment from the top. Secretary 
Gates himself has made energy security a priority, and that is 
reflected in the Quadrennial Defense Review. Consistent with 
the legislation from this committee, the Secretary has created 
the Office of Director for Operational Energy Plans and 
Programs in the Office of the Secretary, and the President has 
nominated Sharon Burke to head this new directorate. Thank you, 
Chairman Ortiz, for the plug for her confirmation. We hope that 
comes soon.
    Second, the Department is investing more to improve the 
energy profile of our fixed installations. Our basic strategy 
is twofold: One, reduce the demand for traditional energy 
through conservation and energy efficiency; and, two, increase 
the supply of renewable and other alternative energy resources.
    Investments that curb demand are the most cost-effective 
way to improve an installation's energy profile. We know that 
from work done by McKenzie and others. As Energy Secretary Chu 
has observed, energy efficiency is not just the low-hanging 
fruit, it is the fruit lying on the ground.
    Investment designed to expand the supply of renewable 
energy sources on base is also an important complement to the 
demand-side investment. Although the payback period is 
significantly longer than that for energy efficiency projects, 
renewable energy is key to energy security on our 
installations.
    A third element, in addition to commitment from the top and 
increased investment, we are taking advantage of the 
Department's strength in research and development (R&D). The 
military, as you know, has a long history of stimulating 
through new technology, through R&D. When it comes to military 
installations, our most valuable role will be as a test bed for 
next-generation technologies coming out of laboratories in 
industry, universities, and the Department of Energy (DOE).
    Our built infrastructure, these 300,000 buildings, are 
unique both for their size and variety, and they capture the 
diversity of building types and climates in the country at 
large. For a wide range of energy technologies for which 
deployment decisions must be made at a local level, DOD can 
play a crucial role by filling the gap between research and 
deployment, the so-called ``valley of death.''
    Specifically, as both a real and a virtual test bed, our 
facilities can serve two key roles in which the military has 
historically excelled. One is as a sophisticated first user, 
and the other is for technologies that are effective to serve 
as the first customer, an early customer, thereby helping to 
create a market, as the Department did with everything from 
aircraft to electronics to the Internet. This will allow the 
military in turn to leverage the cost savings and technology 
advances that private-sector involvement will yield. We are 
pursuing the energy test bed approach on a small scale, and we 
hope to expand this effort working with the Department of 
Energy and others.
    Finally, let me say that we are pursuing a couple of 
initiatives to address specific challenges or impediments, the 
incentives problem that I talked about. Let me just briefly 
mention three of them.
    First, we are addressing DOD's lack of an enterprise-wide 
energy information management system for its global assets. 
Large commercial enterprises manage their energy portfolio 
using such systems. The Department needs one as well, one that 
can provide the appropriate information on energy consumption 
at various levels of aggregation, everything from an individual 
building all the way up to an entire military department.
    Second, we have begun what will likely be a major effort to 
address the risks to our installations from potential 
disruptions to the commercial electricity grid, and we will be 
getting you a report that you requested in the authorization 
bill that lays out our strategy for that.
    Then, finally, we are devoting considerable time and effort 
to a growing challenge to which you both alluded in your 
opening statements, ensuring that proposals for domestic energy 
projects, including renewable energy, are compatible with 
military requirements for land and airspace.
    We are working that problem at two levels. First--and this 
is in the Office of the Secretary, and you will hear from the 
services as well about this--there is a DOD product team, which 
I co-chair, devoted to sustaining our test and training ranges. 
We are working through that group to come up with a better 
process for evaluating proposals from energy developers who 
want to site a renewable project on or near an installation.
    The current process for reviewing proposals and handling 
disputes is opaque, very time-consuming and ad hoc. I don't 
believe we are going to come up with a one-stop shop for this, 
but I think we can go a long way toward improving that process 
from the standpoint of developers and the Department.
    Second, we are looking at the role of research and 
development. Better technology can help us in two key ways. One 
is to better measure the potential impact of a proposed wind 
turbine project or solar tower on military operations in that 
area. Second, new technology can help to mitigate the impact. 
The technology is getting better. There are press reports 
recently about stealth technology going a long way towards 
solving the problem between wind turbines and ground radar, 
though not air-based radar.
    In sum, we have steadily improved our profile at 
installations in terms of energy in recent years in response to 
regulatory and statutory goals. While continuing on that very 
positive trend, I think it is time for us to adapt our approach 
to installation energy management from one that is primarily 
focused on compliance to one focused on long-term cost 
avoidance and mission assurance.
    We have made energy security a priority. We are investing 
more to achieve it. In addition to investing military 
construction and sustainment dollars, we will need to leverage 
the Department's strength in research and development, 
particularly by using our installations as a test bed for next-
generation technologies.
    Finally, we will need to address the impediments to 
improved energy management, including the flawed incentives.
    I very much look forward to working with you all to address 
the challenges and opportunities we face in this very, very 
exciting and important area.
    Thank you.
    Mr. Ortiz. Thank you, Doctor.
    [The prepared statement of Dr. Robyn can be found in the 
Appendix on page 42.]
    Mr. Ortiz. Mr. Hansen, you may proceed with your statement.

  STATEMENT OF L. JERRY HANSEN, ARMY SENIOR ENERGY EXECUTIVE, 
SENIOR OFFICIAL PERFORMING DUTIES AS THE ASSISTANT SECRETARY OF 
THE ARMY FOR INSTALLATIONS AND ENVIRONMENT, U.S. DEPARTMENT OF 
                            THE ARMY

    Mr. Hansen. Thank you, Mr. Chairman.
    Mr. Chairman and members of the Subcommittee, it is my 
pleasure to appear before you today to discuss the Army's 
energy security program. This Subcommittee's ongoing support, 
coupled with the President's vision for energy security and 
sustainability, will result in assured access to reliable 
supplies of energy, to reduce risks, meet our operational 
needs, and build the clean energy future that will benefit the 
Nation.
    We recognize that disruption of critical power and fuel 
supplies can harm our readiness, our ability to accomplish 
vital missions, and exposes us to a vulnerability that must be 
addressed by a more secure energy posture.
    Among the most immediate, significant and systemic risks we 
face is dependence on the commercial power grid. In developing 
the Army program, we considered operational mission priorities 
foremost in planning energy security projects. We are committed 
to enhancing energy security and mission assurance without 
degrading those tests, training, and operational areas 
essential for mission readiness, areas secured at some expense 
with your assistance and support.
    Sustaining Army mission capabilities and global operations 
requires a tremendous amount of energy, as we all appreciate. 
In fiscal year (FY) 2009, the Army spent approximately $1.2 
billion for more than 80 trillion British thermal units of 
energy to operate installations and facilities, and more than 
$1.7 billion for the operational energy requirements worldwide.
    To ensure a comprehensive and coordinated approach to 
energy security, the Secretary of the Army created a Senior 
Energy Council in 2008 to facilitate a cohesive Army-wide 
approach to energy security. The comprehensive Army Energy 
Security Implementation Strategy (AESIS) was developed with the 
active participation of all Army major commands and was 
approved in January of 2009.
    This strategy requires energy to be a key consideration in 
all Army activities, with emphasis on reducing demand, 
increasing efficiency, seeking alternative sources, and 
creating a culture of energy accountability while sustaining or 
enhancing our operational capabilities. The strategy requires 
energy activities across the Army and tracks progress of more 
than 20 objectives and more than 50 metrics for meeting 
established energy efficiency goals.
    The Army is actively supporting advanced technologies and 
is taking immediate action to implement innovative energy 
initiatives to include solar, wind and geothermal power, 
electric and hybrid vehicles, and improve facility energy 
performance, to name but a few.
    In fiscal year 2009, the Army had 67 active renewable 
energy projects, 42 of which generated electricity that 
qualified for credit toward the Energy Policy Act's 2005 
renewable energy goal.
    The Army is making significant investments in implementing 
energy projects. The 2009 Army Recovery and Reinvestment Act 
for research included over $600 million for more than 300 
energy-related projects, such as energy efficiency, facility 
improvements, and projects under the Energy Conservation 
Investment Program (ECIP).
    Some specific examples include at Fort Irwin, California, 
where the Army, as you mentioned, Mr. Chairman, is working with 
a developer to design a plan for the largest solar project 
within DOD, featuring phased construction of about 500 
megawatts of solar power. This plant, which will be constructed 
with approximately $2 billion of private capital, will reduce 
the Army's utility costs by an estimated $20.8 million over 25 
years and will provide secure electricity to Fort Irwin, even 
if the commercial grid were to go down.
    At Fort Bliss, we are experiencing the largest DOD facility 
growth and the installation's position to become an Army center 
for renewable energy. Fort Bliss has begun to utilize renewable 
energy to provide secure electric power for the installation. 
Also in partnership with the local community, an inland 
desalination was developed to create a new supply of fresh 
water, which enables many of the other projects.
    At Fort Detrick, Maryland, the installation has entered 
into an enhanced use lease for a central utilities plant in 
support of the National Interagency Biodefense Campus to 
provide an efficient, cost-effective, reliable and secure 
utility asset. It is an excellent example of a public-private 
partnership.
    In the area of vehicle consumption, the Army is leasing 
4,000 low-speed electrical vehicles to replace petroleum-fueled 
non-tactical vehicles, and in 2009 the Army acquired more than 
700 hybrid vehicles. These initiatives significantly reduce our 
dependence on and consumption of fossil fuels while lowering 
the greenhouse gas emissions.
    In fiscal year 2009, the Army completed installation of 
2,690 advanced electric meters and 575 advanced natural gas 
meters that will be networked to a central metered data 
management system to assist the energy management review and 
analysis throughout the Army.
    In light of the strategic threats to the commercial energy 
infrastructure, the Army acknowledges and accepts that in some 
cases there will be a cost premium associated with achieving 
energy security. Future energy cost-benefit analysis must go 
beyond short-term economic considerations and include a 
determination of how much risk national leadership is willing 
to accept to ensure continued operation of our critical 
military installations, missions and functions.
    Without power and energy, the Army lies silent. The Army's 
energy security program addresses some of the great challenges 
of our time: confronting our dependence on foreign oil; 
addressing the moral, economic, security and environmental 
challenge of global climate change; and building a clean energy 
future to benefit all Americans.
    Mr. Chairman, this concludes my statement. Thank you again 
for the opportunity to appear before you today. I look forward 
to your questions.
    Mr. Ortiz. Thank you.
    [The prepared statement of Mr. Hansen can be found in the 
Appendix on page 51.]
    Mr Ortiz. Mr. Natsuhara.

STATEMENT OF ROGER M. NATSUHARA, ACTING ASSISTANT SECRETARY OF 
  THE NAVY FOR INSTALLATIONS, ENVIRONMENT AND LOGISTICS, U.S. 
                     DEPARTMENT OF THE NAVY

    Mr. Natsuhara. Chairman Ortiz, Representative Forbes, 
members of the Subcommittee, thank you for the opportunity to 
present you with an overview of the Department of Navy 
installation energy program.
    The Department is a recognized leader in energy management, 
research and development, and environmental stewardship, 
receiving 28 percent of all of the Presidential awards and 30 
percent of all of the Federal energy awards in the last nine 
years. But we cannot rest on our accolades.
    The United States relies far too much on fossil fuel, a 
finite resource imported, to a large extent, from volatile 
areas of the world. To set us on the path toward greater energy 
security, Secretary Mabus has committed us to a very ambitious 
set of goals that goes beyond meeting legislative mandates.
    For the shore establishment, he directed that 50 percent of 
our energy will come from alternative sources, and by 2015 the 
Department will reduce fleet vehicle petroleum uses by greater 
than 50 percent. Based on these ambitious goals, we are 
developing a strategic roadmap and set of energy directives 
that will provide guidance to the Navy and Marine Corps. We are 
making investments, allocating resources, developing possible 
legislation, institutionalizing policy changes, creating 
public-private partnerships, and pursuing technology 
development required to meet these goals.
    Renewable energy is a key component of our comprehensive 
energy program. Currently, almost 19 percent of the energy 
produced or consumed on our installations comes from 
alternative sources such as wind, solar and geothermal power, 
and we are leading the way in the development of new 
technologies. With Army Research Office (ARO) funds, we are 
advancing technology to convert the ocean's thermal gradients 
to electricity and potable water. We partnered with industry to 
further develop the design and concept of an Ocean Thermal 
Energy Conversion (OTEC) power plant that we plan to test near 
Naval Station Pearl Harbor, Hawaii, in the coming years.
    With investments hybrids, flex fuel and electric vehicles, 
we can retire many of our petroleum-intensive vehicles 
currently in use. In fact, we have already replaced 30 percent 
of our non-tactical fleet with alternative fuel counterparts.
    Vital to the readiness of our fleet is unencumbered access 
to critical water and space adjacent to our facilities and 
ranges. An example is the Outer Continental Shelf (OCS), where 
the vast majority of our training evolutions occur. The 
Department realizes that energy exploration and offshore wind 
development play a crucial role in our Nation's security and 
are not necessarily mutually exclusive endeavors. However, we 
must ensure that obstructions to freedom of maneuver or 
restrictions to tactical action in critical range space do not 
measurably degrade the ability of the naval forces to achieve 
the highest value in training and testing.
    The Department of Navy is committed to expanding 
interagency partnerships in order to develop the United States 
renewable energy economy. On January 21, 2010, Secretary Mabus 
and the Secretary of Agriculture signed a memorandum of 
understanding. Under this agreement, we will explore and 
develop advanced biofuels, which will be a major component in 
the solutions to meet our aggressive goals.
    We have begun a major effort to address the risk to our 
installations from potential disruptions to the commercial 
electric grid. The Department is participating in interagency 
discussions on the magnitude of the threat and how best to 
mitigate it. Developing more renewable and alternative energy 
sources on our stations will be one element of this effort. 
When combined with smart grid or microgrid technologies, 
investments that reduce demand and produce renewable energy 
will enable installations to sustain mission-critical 
activities during grid disruptions.
    I take pride in the Department of Navy's energy program 
with its proven track record of saving energy and making the 
Nation more secure. We know we cannot meet the threats of 
tomorrow by simply maintaining today's readiness and 
capabilities. We will continue to lead the way through our 
efforts to develop renewable energy sources, and I am confident 
that the Navy and the Marine Corps will excel in meeting the 
energy challenge of the 21st century.
    I am pleased to answer any questions you may have, sir. 
Thank you.
    [The prepared statement of Mr. Natsuhara can be found in 
the Appendix on page 67.]
    Mr. Ortiz. Ms. Tune, you may proceed with your statement.

STATEMENT OF DEBRA K. TUNE, PERFORMING THE DUTIES OF ASSISTANT 
 SECRETARY OF THE AIR FORCE FOR INSTALLATIONS, ENVIRONMENT AND 
          LOGISTICS, U.S. DEPARTMENT OF THE AIR FORCE

    Mrs. Tune. Mr. Chairman, Congressman Forbes, and 
distinguished members of the Committee, it is a pleasure to be 
here to address the Air Force's efforts regarding installation 
energy efficiency and security. I would like to thank the 
Committee for its continued support of America's Air Force and 
the many brave and dedicated airmen who serve around the globe 
to protect our Nation and its interests.
    From aviation operations to installation infrastructure 
within the homeland and abroad, energy enables the dynamic and 
unique defense capabilities of global vigilance, reach, and 
power, the Air Force needs to ``fly, fight, and win'' in 
airspace and cyberspace. We are proud to be a leader in 
America's ongoing quest to use energy more efficiently and 
effectively through improved processes, better operational 
procedures, and new technologies, including the use of 
alternative fuels and renewable sources of energy.
    Sustaining the Air Force's mission-execution capabilities 
in its global operations requires a tremendous amount of 
energy. In fiscal year 2009, the Air Force spent approximately 
$6.7 billion on energy to conduct our operations. Of that, $1.1 
billion went to operate Air Force installations around the 
world.
    We also spent over $350 million last year for installation 
energy projects, with the majority of the funds slated for 
energy conservation initiatives that will make our bases more 
energy efficient.
    The case for action to reduce our energy consumption and 
diversify our energy sources is compelling. Military forces 
will always be dependent on energy, but we must reduce the risk 
to national security associated with our current energy 
posture. Our fragile energy infrastructure, such as the 
national electrical grid, may hinder our ability to reliably 
deliver energy during times of crisis.
    Several years ago, we recognized the need to develop a 
purposeful campaign that builds upon our long history of energy 
conservation and leadership to create an enduring and viable 
energy strategy that meets conservation mandates, establishes 
energy independence, and provides the pathway to acquire the 
resources necessary to make our installations energy efficient. 
Accordingly, the Air Force developed a comprehensive energy 
strategy to improve our ability to manage supply and demand in 
a way that enhances mission capability and readiness.
    A realistic assessment of the current energy situation and 
environment shows the necessity to develop flexible options and 
make choices and investments that will yield a balanced energy 
implementation plan. It is within this context that we 
developed the Air Force energy strategy.
    Under this strategy, our approach to installation energy is 
built on four pillars: improve our current infrastructure; 
improve our future infrastructure; expand renewables; and 
manage costs.
    At the core of this approach is the recognition that it is 
critical to reduce energy consumption and increase the 
available supply of energy. From installing energy-efficient 
lighting systems, to investing in the state-of-the-art energy 
meters, we are continually improving the energy conservation of 
our facilities and reengineering our processes. We are 
expanding the use of renewable energy on our bases to enhance 
energy supplies and advance energy security.
    We are also collaborating with the Office of the Secretary 
of Defense, our sister services, other Federal agencies, 
research institutions, and private industry to help us meet or 
exceed our goals. By sharing our ideas and best practices, we 
can improve our energy security and reduce our greenhouse 
emissions through the use of renewable energy and robust energy 
management practices.
    The Air Force has a solid record of successes and strengths 
in energy management, and we will continue to make gains 
through our strategy. The key to a successful execution is 
aligning our resources to the goals and creating accountability 
through effective governance. Our approach will sustain our 
leadership in energy conservation and alternative energy.
    Mr. Chairman, Congressman Forbes, this concludes my 
remarks. I thank you and the Committee again for your continued 
support of our airmen and their families. I look forward to 
your questions.
    Mr. Ortiz. Thank you so much for your testimony.
    [The prepared statement of Mrs. Tune can be found in the 
Appendix on page 82.]
    Mr. Ortiz. Now I would like to ask unanimous consent that 
non-subcommittee members be allowed to participate in today's 
hearing after all subcommittee members have had an opportunity 
to ask questions.
    Hearing no objection, so ordered.
    Mr. Ortiz. I am going to start off with one of the 
questions that I mentioned earlier in my testimony.
    The number of domestic renewable energy projects has been 
increasing significantly in recent years. Since 2006, the 
Department of Energy and the American Wind Energy Association 
have been investigating means to enable wind energy to 
contribute at least 20 percent of our Nation's electricity, by 
2030 at least, an initiative that will require thousands of new 
wind turbine generators. Yet, wind fields can significantly 
affect radar performance and can cause obstructions and hazards 
along military training routes, and not only for military 
training, but I understand for Homeland Security as well.
    The burden of coordinating with local communities on 
proposed wind farm projects currently falls on individual 
commanders, and I know, because we are going through some of 
those problems right now.
    I just wonder what efforts are being made to engage 
proactively at the service at the Department level to mitigate 
impact of new wind turbines on military training routes and air 
defense radars. I am just wondering, has this been established, 
have studies been made that they do impact training and radar?
    This is a very interesting subject, and I know that we are 
right in the middle of them, my district, right in the middle 
of two military training bases. So any of you that would like 
to tackle this, go right ahead.
    Dr. Robyn. Sure, I will take a stab at it.
    It is a serious issue. I spent the better part of a week 
touring test and training ranges in Southern California in part 
to get a better feel for this issue.
    I don't believe that any project has gone forward that 
creates any sort of a problem. I think there are a lot of 
checks in this system now to keep that from happening. But it 
is an opaque process and one that can take a long time. Often 
the base commanders don't find out about a project until the 
project is pretty far along, and that is because the energy 
developers have an incentive to keep that information to 
themselves. They don't want their competitors to know about it. 
And the developers say, well, they often don't know that there 
is a problem until late in the process. So we hear complaints 
from both sides about it.
    Obviously, our concern is with making sure that these crown 
jewels that we have in the form of test and training ranges, 
and bases more generally, can continue to operate.
    I think that the Air Force--and Deb can talk more about 
this, but to illustrate, probably the most difficult case is 
one with Solar Reserve Company. It was a solar tower at Nellis 
Air Force Base, so a different project than the one that you 
talked about in your opening statement.
    Nellis had concerns about it. The Air Force brought in the 
Air Force Scientific Advisory Board. They brought in 
Massachusetts Institute of Technology (MIT) radar experts. They 
spent six months studying it and determined that it would be 
okay if it were moved a mile away.
    So I think for the time being, when there are contentious 
projects, that is going to be--that is how it is going to have 
to be handled. There is going to have to be a lot of scrutiny 
and study to determine whether it is okay to go ahead.
    What we would like to do and what we are trying to do is to 
come up with a process that can provide a more streamlined 
approach for projects that aren't as controversial as that, so 
that developers have some sense and can get an early read on 
whether a project is going to create a problem. And one way we 
have talked with WIA, the wind power folks, about is if we 
create a process that allows developers to share confidential 
information with us, would that be helpful? The Federal 
Government has done that in other cases with cell tower siting, 
for example. So I think that would help to get information 
earlier.
    It is, of course, an interagency process, so we have 
brought the Department of Energy, the White House Office of 
Science and Technology Policy as well.
    Number one, we are trying to come up with a better process 
so that developers can get an answer sooner, more predictably. 
Second, to push the envelope in terms of R&D, because I think 
there will be mitigation techniques that can be developed. And 
as the opportunities become more valuable, it will become in 
the industry's interest to put more money in that, and it is in 
our interests as well.
    Mr. Ortiz. See, what happens is that most of the time this 
land is outside the city's jurisdiction, there is no ordinances 
that they have to follow, and people go out and they buy 
thousands of acres, and this is what they want to build. But 
there is nobody that they can go and file, like you say, what 
they are going to build, and then all of a sudden, we say my 
God, it is going to be in the path of some of these helicopter 
and aircraft training.
    But you are right, I hope that somebody is looking into 
this, and maybe we can tighten up the rules a little bit. We 
really appreciate the young men and women who go through this 
training, and we want to keep them away from harm's way.
    Anybody else that would like to answer?
    Mrs. Tune. Sir, I would like to add, I agree with 
everything that Dr. Robyn said. For the Air Force, we have 
dealt with this at Travis Air Force Base with multiple wind 
turbine sitings there, and we have come up with a protocol, a 
siting protocol that we can work in conjunction with. If it is 
Bureau of Land Management (BLM) land, you are exactly right; we 
have a little more opportunity to engage with BLM and to 
develop the siting protocols. That has worked very well.
    We have a good working relationship with industry and the 
developers. And our experience is the developers want it to be 
a cooperative situation, so they do want to work with the Air 
Force installations, provided we share information very early 
in the project. They don't make a lot of investments too early. 
So I think we are working through that.
    I would say another agency that does get involved in 
private lands is Federal Aviation Administration (FAA). So we 
have been partnering with FAA as well, if you are looking at a 
flight obstruction, some type of obstruction that may impact 
us.
    We too believe that there needs to be some centralized 
process that allows the private developers to access the 
information they need and to have a collaborative environment, 
and we can have a standard process to ensure--because we do not 
and the Air Force's position is we will not trade off 
operational mission capabilities for renewables. So we need to 
partner, we need to work together, it needs to be 
collaborative.
    Mr. Ortiz. Thank you.
    Mr. Hansen, would you like to add something?
    Mr. Hansen. Yes, Mr. Chairman. It probably hasn't been as 
big an issue in the Army as it might have been at some of our 
sister services, but we did have a recent example at 
Massachusetts Military Reservation where the Army coordinated 
with the State, the Air Force, Coast Guard, FAA, all through 
the National Guard, and wind does appear to be the reasonable 
solution for renewable energy at that particular site.
    But overall, we are ensuring that there will be no adverse 
impact to missions as well, and we do have a work group 
reviewing the process to make sure we have the requisite 
visibility and oversight and we are working closely with the 
other services and OSD on that.
    Mr. Natsuhara. For the Navy, for the encroachments around 
the bases, we have good liaison. The Marine Corps uses their 
community plans and liaison offices and the Navy uses their 
regional offices. So we have a pretty good handle on what goes 
around the bases.
    Our concern that we have been working with OSD and the 
other agencies are those in the flight paths, and we will 
continue to coordinate with DOD and the other services.
    The Outer Continental Shelf is an issue that we are very 
concerned with. As I mentioned in my statement, the Department 
of Interior has established a process and we are working with 
OSD on that.
    So on the land, the local, we think we have a workable 
process. It can be streamlined. On the Outer Continental Shelf/
ocean, we are still working with Interior and OSD to streamline 
that one. Our concern is the ones that we don't know about 
outside.
    Mr. Ortiz. Thank you. We are going to have votes in the 
next few minutes, and I know what happens when this happens to 
be the last votes of the day. I am going to yield to my good 
friend Mr. Forbes for any questions that he might have.
    Mr. Forbes. Thank you, Mr. Chairman. Once again, I thank 
all of you. I am going to be very brief and try to articulate 
this the best I can. I will take one shot at it.
    But if you look at a college football coach or a high 
school football coach when they are drawing up pass plays and 
all, they spend quantities of time trying to intersect those 
and make sure they are working against the defenses and they 
are all planned out. Before that, when you are playing street 
ball, people get together and they just say, just go deep, we 
are going to throw it to you.
    My worry when we are looking at some of the alternative 
energy stuff that we are dealing with is we are just kind of 
saying, just go deep. You know, just get as much out there as 
you can. Just get it as fast as you can.
    But I kind of, in a follow-up to what the Chairman just 
raised, whether it is looking at impacts on our training, or 
whether it is looking on whether we have an overall plan, it 
seems like we got a lot of stuff out there. And when we hear at 
hearings like this, we have got all of these projects and all 
these kinds of things going, do we have and will we be better 
served with kind of a comprehensive coming together and saying 
here are our objectives? It might not be 700 different things. 
It might be 50 things. But we have some quantifiable measuring 
standards to see if we are reaching those.
    Mr. Hansen, you talked about 700 hybrid vehicles, and Mr. 
Natsuhara has talked about 30 percent of the fleet being 
alternative energy. But I know when I even talk to some of my 
automobile dealers, they are saying the jury is kind of out on 
some of the hybrid stuff as to whether or not it makes sense to 
have it.
    So I would like to just have your thoughts about how we can 
kind of get our arms around a more--or should we even do it--a 
more comprehensive set of goals, set of objectives, how we 
measure those and how we look at that together, including the 
impacts on training and other things.
    That will be my only question to you. I hope I have been 
clear enough on the question.
    Mr. Hansen. Yes, sir, Mr. Congressman, you have been very 
clear on that, and I think I can see how that impression would 
be given that we might be just going deep. But as a couple of 
examples we have in the Army, at Fort Bliss we did a Tiger Team 
that looked at the overall energy security needs of that 
installation and had wide participation from other Federal 
agencies as well as from the Army, and developed really a 
hybrid solution to what is most appropriate based on the 
business case, based on a lot of factors, State and regulatory 
factors, and what is the potential there for geothermal, for 
wind, for solar and so forth, and really designed a hybrid 
solution for that installation that would allow it to become 
eventually a net zero type of installation.
    We are doing a similar process for other installations, 
where we are doing an overall study now looking at all the 
installations and the climates in each of the States and the 
potentials that exist in all of them. I really do believe that 
the solution for each installation will be a hybrid that will 
include a lot of components and won't just be whoever is 
available the quickest and biggest.
    Mr. Natsuhara. In the Department of Navy, and particularly 
our Geothermal Office has been around for a couple of decades, 
so we feel pretty good that we have a lot of experience, we 
have been very methodical about looking at different areas for 
the geothermal. So because of our experience, they have been 
around for a couple of decades.
    We think at least on our geothermal, we have done a very 
methodical job of looking at these things. And off of that, we 
have been very methodical looking at not only the bases, but 
the regions for the bases on energy, the types where it makes 
sense.
    We have stood up a couple of task forces in the Department 
of Energy. We have a task force of energy in the Marine Corps; 
they have stood up an expeditionary group that looks at energy. 
So we are starting to look at it in a much more methodical 
method. Within the Secretary's Office we are standing up a new 
Deputy Assistant Secretary for Energy that will help with this 
coordination also. So we are very concerned about that also. 
And we are looking at that with establishing metrics also.
    Mrs. Tune. Congressman Forbes, I am aiming to answer your 
question a little bit differently. First, let me just say I 
think the Air Force has a very aggressive infrastructure plan, 
that we have looked at all of our bases and decided what makes 
sense from a renewable perspective, what is the best value, you 
have got to have some return, you have got to ensure you have 
mission assurance and security. And so we really have a robust 
plan that takes us out to 2025.
    But I think your point really is with the mandates that we 
have out there: Are they just mandates or are they smart things 
to do? And obviously we are going to comply with the law. But I 
would agree with you, we are, for example, on vehicles, we are 
looking at some of the low-speed vehicles and what return we 
are getting on that. And I think that we will work in 
conjunction with OSD and with the administration if we need to 
make some changes that are really not providing the value that 
we think should be there.
    So we are tracking that. We are seeing what makes sense. We 
are going where the money is and where the payback is going to 
be, from either, we think, a big payback from a greenhouse gas 
perspective, from a security perspective, or from a financial 
perspective.
    And so obviously we are following mandates as well.
    Mr. Forbes. Thank you. And Doctor, I would just like to 
have your idea, too. But one of the other things I would just 
throw out to you for your thoughts is, are we able to use 
modeling and simulation very well on this? Because we are no 
longer just in a situation to go do it and let's get our data 
in, but really we have become pretty sophisticated on how we 
can do that to give us the kind of jointness we need across the 
services, but also so we take at least some of the guesswork 
out of that: Is that helping and how can we utilize that more 
to perhaps make sure we are getting the goals that we want to 
reach?
    Dr. Robyn. I am not sure--well, we are certainly using 
modeling and simulation to determine if a potential wind farm 
project is going to have an impact on radar, other activity. So 
in that sense, that has been absolutely critical. I think that 
technology can get better, but that is critical.
    And one point, I just wanted to reiterate what the others 
said, that with respect to that issue of renewable siting and 
potential incompatibility, there are a lot of checks in the 
system now and none of the services are making any trade-off 
between their operational needs and renewable energy. So are 
you talking about modeling more generally to----
    Mr. Forbes. I am talking about our capability now of 
bringing modeling and simulation to advance all of our 
projections and help our decision making in a much more 
coordinated fashion than we have ever been able to do it 
before, with limited resources and where we need to go.
    I just think that is something I put on the table for you 
and would love to chat more. I don't want to take up more time. 
But I just think it affords us some great opportunities now to 
do some things we couldn't do a decade ago to maximize our 
resources and make sure we are hitting the goals that we want 
to reach.
    With that, Mr. Chairman, thank you and I yield back my 
time.
    Mr. Ortiz. I yield to my good friend, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. And I realize this is 
probably a little bit out of any of your leagues, but I'm going 
to ask the question anyway. It is my understanding that the 
gallon for a burdened cost of fuel in Afghanistan, the cost, 
which is the real cost of actually delivering it to one of 
those forward operating bases, is about $400 per gallon by the 
time----
    Dr. Robyn. No.
    Mr. Taylor. Well, what is it ma'am?
    Dr. Robyn. I think General Conway put that number out there 
and that there has since been--there are scenarios where one 
could construct a scenario where the fully burdened cost of 
fuel would be $400. But the Marine Corps has done the most 
recent analysis and it is--I mean it is definitely bigger than 
the commodity price maybe by an order of magnitude. It is 
scenario-dependent.
    Mr. Taylor. Let's average it off over the cost.
    Dr. Robyn. The Marines' numbers are in the vicinity of $9 
to $16 a gallon as I recall. But I don't want to--I think the 
argument that there isn't a--the fully burdened cost is larger 
than the commodity price, that is a powerful, powerful 
argument, and I am fond of making it. So I don't want to. I 
just wanted to take issue with the $400.
    Mr. Taylor. The reason I put that out there is my question 
is, I want to, let me start by saying I want our troops to be 
warm in the winter, cool in the summer, have what creature 
comforts they can, understanding that they are in a war zone. 
But my concern is I think the contractors who provide those 
things are paid on a cost-plus basis, which, whether it is $400 
a gallon or $40 a gallon, provides them with no incentive to 
try to be energy conscious.
    Now, from a taxpayer point of view that is wrong. But also 
considering that someone is risking their life to drive that 
fuel truck, whether it is a U.S. Government contractor or 
someone's child serving in the military. So if we can encourage 
those contractors to be more energy efficient, then we ought to 
be doing that.
    Now, one technology that I don't see being used that is 
commonly used on commercial vessels is to take the warm water 
that is cooling the propulsion unit, run that through a heat 
exchanger, which in turn creates the warm water for the ship's 
crew. It is my understanding that about 10 percent of all the 
fuel we use is just trying to warm water. So let's say we saved 
half. Five percent of the hundreds of thousands of gallons that 
are shipped to Afghanistan at $40 a gallon or $400 a gallon is 
a significant savings.
    I am curious if you have looked into that at all because, 
again, it is very common technology used by people for their 
recreational boats, used by commercial vessels, but I do not 
see it being used in either Iraq or Afghanistan. And the one 
thing if you visit those installations, the one thing that 
strikes you is the constant drone of the diesel generators at 
every one of those installations, providing every bit of 
electricity on almost every one of those installations. Have 
you looked into it?
    Mr. Natsuhara. The Marine Corps has established what they 
call an experimental forward operating base at Quantico, where 
they are bringing in industry to demonstrate those types of 
technologies that are mature enough. And if they work----
    Mr. Taylor. They do work, sir, I can assure you. The 
question is, since we know it is proven technology, it is used 
by average Joes, it is used by commercial vessels, who is 
pushing the DOD to use it?
    Mr. Natsuhara. I know that the Marine Corps is very 
aggressively trying to validate these technologies. And if they 
work, if the companies can demonstrate that it meets their 
requirement, their plan is to buy those immediately and ship 
them off to Afghanistan. And I know we have--I believe we have 
some solar-powered desalination type units that have been 
recently shipped out there. So they are looked at; the Marine 
Corps is very much looking at those types technologies.
    Mr. Taylor. Would you get back to me on this specific 
thing?
    Mr. Natsuhara. Yes, sir.
    [The information referred to can be found in the Appendix 
on page 95.]
    Mr. Taylor. Second thing, and if the Chairman will pardon 
me, having been through a pretty catastrophic event in my 
congressional district four years ago, seeing people living 
without electricity, and contrasting the difference between 
what happened in south Mississippi and what happened in south 
Louisiana, one of the huge differences for things going better 
in Mississippi was the availability of our military 
installations to ride to the rescue. One of the things that 
helped them was being able to prepare hot meals in the case of 
the Navy construction battalion the day after the storm, but 
almost every one of those installations, after putting in a 
hard day's work, at almost every one of those installations 
they could take a shower at the end of the day, which the 
average Mississippian was not doing; they had a hot meal; and 
the reason they could do that was almost every one of these 
installations had their own water well, had their own sewage 
treatment plant, had their own generators.
    And again, I realize that multiple Presidents and multiple 
Secretaries of Defense have been pushing you to buy it on the 
private sector. But there will be other hurricanes, there will 
be other manmade and natural disasters, and other communities 
will be looking for their nearby military installations to ride 
to the rescue.
    In your deliberations, to what extent do you weigh at least 
having an auxiliary plan of having that base be self-sufficient 
for that scenario if the local grid is out for whatever reason?
    Mr. Marshall. Would the gentleman yield? I might as well go 
ahead and ask what I was going to ask you all, because it is 
essentially along these lines, but it takes it a little 
further. I will start out, I guess, by saying that Ms. Tune, 
Mrs. Tune as she calls herself, is a superstar in middle 
Georgia. I bet the other three of you did not know that, but 
she truly is adored and extremely effective when she was at 
Robins Air Force Base, and I'm glad you are kind of stuck up 
there so you don't come back here and run against me or 
something terrible like that, because you are very, very highly 
thought of.
    Now, Ms. Tune in her comments mentioned that the Air Force 
had gone about the business of serving all of its facilities 
and deciding what it could do as far as independent energy 
sources is concerned. My guess is that survey did not 
adequately take into account the possibility of installing in 
all of these places small nukes that are hardened against 
electromagnetic pulse (EMP) attacks, that are large enough that 
they can serve the local population in the event that we do 
have a major problem.
    In the last bill, following along the lines of the question 
from Mr. Taylor, we had language asking the Secretary to do a 
study. I imagine you all are involved in that study. But it 
seems to me in all likelihood we should be thinking about 
slowing down a little bit on the energy initiatives that we 
have begun thus far. If, in fact, what we ought to be doing is 
putting in small nukes so that we are completely self-
sufficient, hardened against EMP attacks, ready to provide 
power--not just services but power--to the communities that are 
involved in such an attack, then we are just going to be--we 
are wasting money on other projects, wind turbine, solar, et 
cetera, if in fact we wind up heading in that direction. So 
that elaborates a little bit more on what Mr. Taylor's question 
is.
    Mr. Taylor. Again I appreciate, if I may, I appreciate the 
gentleman's question. But in an ideal world I am in total 
agreement with Mr. Marshall. So let's start with the basics.
    Are you at least keeping an eye towards having those bases 
have the ability to deliver their own water, to treat their own 
waste, since that does become a huge problem; sufficient 
generators for each installation to take care of itself should 
the local grid go down. Because those installations will be 
counted on by whatever nearby community to ride to the rescue.
    Do you keep that as a part of your master plan is what I 
would like to know?
    Mrs. Tune. Sir, for the Air Force, that is part of our 
plan. I would not say that we are completely capable of doing 
that. We do have backup generators and capability for that. The 
first thing we do is look at the vulnerability of the grid and 
assess what our threats are and how we can address those so we 
can mitigate any risk that we may have.
    But if you are looking at independent security for the 
base, we do have two installations in the Air Force currently 
that do have that scenario, that is at Tinker Air Force Base in 
Oklahoma and Robins Air Force Base, Georgia. And we were able 
to get that because the local utility needed it for peak loads. 
And so they built that plant generation on the bases at their 
expense. And we are able to, if we lost power to the grid, we 
would be able to field the generator to kick-start this plant. 
At Robins Air Force Base, for example, only one-third of that 
generation would power the entire base and the other two-thirds 
could go back out to the community. And we have the same type 
of scenario at Tinker Air Force Base.
    Whether we are going to be able to do that across our 
installations, that is going to require a lot of joint work 
with the utilities, with the local communities. It could be 
expensive. We are going to have to decide where we best do 
that. But you are absolutely right.
    And the contingency plans, we do have that from a 
perspective of backup generators and how we will provide that 
support to the community in a national emergency type 
situation. But we do not have that across the board. But we are 
looking at that because that is something we would like to be 
able to do.
    Mr. Taylor. Please, sir.
    Mr. Hansen. Mr. Congressman, I would second Mrs. Tune's 
comments and just emphasize the fact that energy security for 
the Department really hits at the heart of what you describe, 
because it means having assured--this is just the QDR 
definition--having assured access to reliable supplies of 
energy and the ability to protect and deliver sufficient energy 
to meet our operational needs. And hand in hand with our energy 
management programs, our energy security programs, we also have 
the defense critical infrastructure protection program and we 
are coordinating very closely with them to make sure that we 
meet those key needs that you have described.
    Mr. Natsuhara. For the Department of the Navy, as the Air 
Force and the Army, for our critical loads we do have emergency 
backup generators today. Secretary Mabus has for our goal to 
have 50 percent of our bases at net zero by 2020, and so we are 
actively working very hard to have many of our bases, and we 
have some that are very close right now with different variety 
of technologies from wind, solar, we have geothermal, those 
types of alternate energies on our bases. So we are shooting 
for--our goal is to be 50 percent net zero by 2020.
    Water and wastewater, we have not addressed that yet. Most 
of our bases' water and wastewater is--we do get that service 
from outside the fence, and we have not looked at those in 
depth yet.
    Mr. Ortiz. Like I stated in the beginning, we are going to 
have some votes. So let's see if we can stick to the five-
minute rule so everybody has a chance to ask questions.
    Ms. Giffords, go ahead.
    Ms. Giffords. Thank you, Mr. Chairman. And thank you to our 
panelists for being here today. It is exceptional, the work 
that you are doing, not just keeping our military safe and 
keeping them able to fight hard, but actually transforming 
energy in America and energy on the planet and reducing our 
dependency from foreign energy. It is very exciting.
    As we all know, the DOD is the largest user of energy in 
the world. On our installations, we spend nearly $4 billion a 
year and about $16 billion on fuel. That is a lot. But the 
Department is also the largest purchaser of renewable energy 
now in the country, and I think also maybe even around the 
planet. So there are a lot of really good success stories.
    In a recent meeting that we had with you, Mr. Chairman, and 
with Dr. Robyn and Assistant Secretary Dory, we spoke in great 
length about installation energy issues and legislation that we 
have been working with to reduce the Department's energy 
consumption, increase efficiencies, and continue the 
development of renewable energy on DOD installations. So we 
have spent, a lot of us in this room, a significant amount of 
time together.
    But a couple of the points that I want to make sure we 
bring out for the public, each of the services have expressed 
an interest, and according to the branch, it is not a one-size-
fits-all. But I look at the Navy's China Lake geothermal plant 
and, of course, Nellis' facility for the Air Force. These are 
the first major large-scale projects of their type that have 
brought forward. We had a recent ribbon cutting at Davis-
Monthan Air Force Base in southern Arizona.
    I am curious whether or not--or, specifically, do the 
services continue to plan constructing the similar large-scale 
solar arrays as a viable means of achieving the net zero 
installations?
    Mrs. Tune. Well, I definitely believe it has been a success 
for us and will continue to do so. As you probably know, many 
of those larger solar arrays are third-party providers, and so 
we probably will. We like that model. It is their money. And 
so, yes. I would say the short answer is yes.
    Mr. Hansen. Thank you for asking, Madam Congresswoman. We 
don't, as you say, consider that one size fits all, so we look 
at each installation individually as to what makes the most 
sense there. And as I said earlier, I think that we are finding 
that the hybrid solution is pretty much what we are going to 
find at most installations. It might include a mix of solar and 
wind, and photovoltaics (PV), geothermal, biomass. Fort Knox, 
for instance, geothermal is working well because they have good 
dirt. But in the Southwest there is a lot of good sun so we are 
looking more closely at it in those areas just based on the 
potentials there.
    Mr. Natsuhara. For the Department of the Navy, since we do 
have a lot of facilities in the Southwest, where it is very 
advantageous, we are pursuing those in our 2011 budget. The 
Marine Corps has about $30 million of photovoltaic plan for 
Military Construction (MILCON) with three projects. And at the 
Air Force and Army, we do like to leverage the private sector 
for the photovoltaics. And we are also pursuing, as I 
mentioned, geothermal in Miramar. We are also trying to get off 
the landfill there, the methane gas off the landfill, to do a 
cogeneration plant there through a private venture.
    Ms. Giffords. That is good to know. Talking about the grid 
and the dependency on the grid, that is another area of concern 
that we have in this country. And I think about the ability to 
sustain bases in the case that there is an attack on the grid. 
Blackouts and natural disasters, of course, are unfortunately 
inevitable.
    I am curious whether the Department has revisited the idea 
of islanding its bases, allowing each facility to maintain an 
independence from the grid, and whether or not any sort of 
initiatives have really been explored in this means.
    Mr. Natsuhara. For the Department of the Navy, we are very 
concerned about islanding. We don't want to be perceived as 
just taking care of ourselves. And we are part of the 
community. We are very concerned. We are looking at making sure 
critical loads are, but we don't want to be perceived as an 
island within the community.
    Dr. Robyn. I think maybe the word ``islanding'' was used in 
the Defense Science Board report. I'm not sure if that was the 
source of it. And I think it is an unfortunate choice of word, 
because it does conjure up images of the way the Defense 
Department has in the past done things when they tended to 
create their own, do it solo, and that is not always good. In 
recent years they have moved much toward leveraging the broader 
commercial market, and that is a very positive thing.
    I think the key is there is a lot of--we are focusing 
heavily on this. I think it is more on critical missions as 
opposed to entire bases. So identifying at any installation are 
there critical missions there that we would need to maintain in 
the event of grid disruption and, if so, how do we do that? Is 
the backup diesel capability, or whatever that we now have, 
sufficient? Do we need to do more than that? And renewable can 
be helpful. Nuclear could be very helpful. I don't see 
renewable and nuclear as either/or. It could be both.
    Mr. Natsuhara. Just real quick, part of it is that the new 
smart-grid technologies, where you are able to isolate those 
critical loads so you don't have this islanding--and that is 
what we are working with, with the research agencies in the 
Department of Energy, on those smart-grid technologies.
    Ms. Giffords. Mr. Chairman, I know my time is up, but to 
piggyback on Mr. Taylor's point by figuring this out here in 
the United States, where it is a safer and more stable 
environment, we can transform a lot of that technology from 
some of our forward operating bases into theater.
    Mr. Ortiz. Thank you. I was under the impression that my 
good friend, Mr. Marshall, was finished; but he is not finished 
with his question. And we have two more members and I hope that 
we can--we hate to keep you here until we finish the voting. I 
know you have other things to do. But now let me yield to my 
good friend, Mr. Marshall, for his question.
    Mr. Marshall. Because of the fact that there are two others 
here, and we are under 15 minutes right now, I am going to be 
very, very brief and just make the observation that there may 
be no inconsistency between other forms of renewable power and 
nuclear, we don't know. It depends largely upon whether or not 
you are hardening the other stuff. I suspect we are not. I 
suspect we didn't even look into what it would cost, for 
example, with Warner Robins working with the private utility to 
add whatever should be added in order to have a hardened 
facility that would survive an EMP attack. It is, frankly, the 
attack that we are most vulnerable to here in the United States 
and it is something that would be absolutely dreadful if we are 
not able to get up and get running fairly quickly.
    So I would just simply ask that you brief me on the 
Department's current process for making decisions concerning 
renewables, or others where power is concerned.
    Do you take into account hardening?
    I know we have gamed the consequences of EMP attacks. I 
know we want to be able to produce electricity fairly quickly 
after an EMP attack. We wouldn't want to do it simply for 
ourselves. We would want to do it for the populations we are 
serving, just like we did where Katrina was concerned. I will 
just let it go at that so that the others can ask their 
questions. You need not comment at this point.
    Mr. Ortiz. Ms. Shea-Porter, she is a member of the 
Subcommittee. And then we will give to Mr. Murphy. And we don't 
want to keep you here longer than you have to be here. Thank 
you. Go ahead, Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you. I have been concerned about the 
burn pits. I had an amendment to the fiscal year 2010 Defense 
authorization that prohibited disposing of medical and 
hazardous wastes and plastics in burn pits. Unfortunately in 
conference, they took out the part about the plastics.
    I received a safety newsletter from Iraq recently and it 
focused on burn pits. Their two incinerators can handle 70 of 
the 110 tons of trash a day generated by the base, and the 
remainder, about 40 tons a day, is burned in the open pit. 
Their safety department knows of the health dangers, exposure 
to dioxins and other toxic chemicals released by the burning of 
these plastics, a practice prohibited in the U.S. for health 
reasons. Most of the plastics are from the dining hall and the 
newsletter notes the importance of recycling the plastics.
    I would also add there are alternatives to using plastic 
utensils. We use them right here in the House. What are you 
doing, please, to reduce the quantity of plastics that are 
burned in these pits, and are you open to purchasing the 
renewables that would be much safer for the troops? Mr. Hansen.
    Mr. Hansen. Madam Congresswoman, I am not sure the status 
of alternatives to the plastic utility ware, I mean to plastic 
ware, but I know that we have put out some directives on burn 
pits; and we are certainly moving to eliminate those because we 
recognize the hazard and potential hazard is serious, and a 
serious threat to our soldiers as well as the locals. And we 
can get you an answer on the specifics on that.
    [The information referred to can be found in the Appendix 
on page 95.]
    Ms. Shea-Porter. I would appreciate that. Again, I would 
repeat that most of the plastics are from the dining hall. So 
it seems a pretty simple solution. And I do believe that it is 
essential to protecting these soldiers' lungs and their bodies 
from some unnecessary exposure. Thank you, and I yield back.
    Mr. Hansen. Yes, ma'am.
    Mr. Ortiz. Mr. Murphy.
    Mr. Murphy. Thank you, Mr. Chairman. I appreciate the 
opportunity to ask questions today. Thank you. And to the 
panel, thank you so much for your continued service to our 
country and to our military.
    My question today is mostly focused on facility energy, and 
the Department of Defense, as we all know and as you testified 
today, is the single largest energy consumer in the United 
States. In 2008 alone, the Department of Defense spent $4 
billion on facility energy. And I think that we can all 
acknowledge that the Department needs to do much more work on 
utilizing renewable energy sources. But outside the sheer 
dollar value, I also know that the Department itself has 
highlighted how intertwined energy security is with 
installation security.
    Two months ago, I read that the December 2009 GAO study on 
renewable energy in our defense infrastructure clearly raised 
concerns about the current challenges in ensuring installation 
energy security, specifically noting--and I quote--``technical 
and safety challenges required to integrate the onsite 
renewable energy generation with the installation's existing 
electrical infrastructure and operating the renewable 
technology safety during a power supply disruption.''
    Additionally, the QDR noted ``to address energy security 
while simultaneously enhancing mission assurance at domestic 
facilities, the Department is focused on making them more 
resilient'' as well as focusing on the need to ensure that 
critical installations are adequately prepared for prolonged 
outages caused by natural disasters, accidents, and attacks.
    So I am sure each of the services are executing their own 
plans in this area, but would each of you comment on the GAO 
findings in the QDR and discuss what more we need to do in 
terms of research, development, integration and implementing a 
strategy to ensure installation security through energy 
security?
    And I will start off with you, Mr. Hansen. You are a West 
Point graduate; I had an opportunity to teach at your alma 
mater. You can lead off. How does that sound, sir?
    Mr. Hansen. Thank you, Mr. Congressman. We, as part of our 
Army energy security implementation strategy, are trying to 
pull together all aspects of that, the R&D part, the 
integration part. We haven't fully implemented all that. I am 
not saying we are where we need to be yet, but we are well on 
the way with the metrics to achieve that integrated approach 
that you are describing.
    I know that the Air Force at Robins has done some exercise 
on this. There are good news stories, and we are certainly 
learning from each other. So I think that we appreciate the 
assistance that the Congress has given us in a number of these 
areas with programs like the energy conservation improvement 
program. And we try to use those smartly to improve those 
security elements at both the installation level and through 
energy security. That is a fairly general answer, but we are 
working hard in just the areas that you identified.
    Mr. Murphy. Before I go to the others, because I know my 
time--if I could, just one other thing real quick. How about as 
far as coordinating--I know, obviously all of you in your 
individual departments and Dr. Robyn with the Department of 
Defense itself, but how about the coordination with outside 
agencies, outside the Department of Defense, on installation 
energy issues?
    For example, we all know about the historic investments 
this Congress has made in smart-grid technology that has been 
utilized by the Department of Energy. So is there any 
coordination with the Department of Energy, with DOD, et 
cetera, in regards to that?
    I will turn to Dr. Robyn and anyone else that wants to 
touch base.
    Mr. Natsuhara. For the Department of the Navy, we just 
started four working groups with the Department of Energy and 
through the Department of Defense. And one of those working 
groups is on the smart grid, and energy security is one of the 
big topics that we have just kicked off. Through our research, 
our own naval research labs, and the Department of Energy, we 
really wanted to leverage that technology. We do see that as a 
big area, and so we are going across the other agencies with 
that.
    Dr. Robyn. We meet early and often with the Department of 
Energy. There is the Office of Renewable Energy and Energy 
Efficiency, and there is a division of that devoted to 
buildings and overseen by a former colleague of mine, and we 
are working with them.
    As you note, Department of Energy has a new program called 
Advanced Research Projects Agency-Energy (ARPA-E) modeled after 
our Defense Advanced Research Projects Agency (DARPA) program, 
and we are hoping to partner with them on the test bed idea. 
The National Renewable Energy Lab--I mean there are many, many 
parts of the Department of Energy that we work with on the 
issue of compatibility of renewables with our air and land 
requirements. They are a critical player on that as well.
    Mrs. Tune. As I stated earlier, the Air Force is completing 
both physical and cyber vulnerability threats, and there are 
things that are short, mid, and long-term, and we are engaged, 
along with the other services, in OSD, with the Department of 
Homeland Security, and DOE, because we are all aggressively 
working this to mitigate the risk.
    Mr. Murphy. Thank you, everybody. Thank you, Mr. Chairman, 
I appreciate it.
    Mr. Ortiz. Thank you so much. I think that all of us have a 
huge responsibility not only to those that serve in the 
military, but our taxpayers, to come up with the new ideas, new 
concepts, new research that will save the taxpayers money as 
well.
    I think that this has been a very interesting hearing. And 
we hate to keep you here because we have a series of votes. But 
any member who is here, who may not be here, who might like to 
ask questions, we will give them the opportunity to submit 
written questions to you so you can respond.
    And thank you so much. This has been very interesting 
testimony, and we will work with you and stay in contact with 
you. The hearing stands adjourned. Thank you.
    [Whereupon, at 3:30 p.m., the Subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           February 24, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 24, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7834.001
    
    [GRAPHIC] [TIFF OMITTED] T7834.002
    
    [GRAPHIC] [TIFF OMITTED] T7834.003
    
    [GRAPHIC] [TIFF OMITTED] T7834.004
    
    [GRAPHIC] [TIFF OMITTED] T7834.005
    
    [GRAPHIC] [TIFF OMITTED] T7834.006
    
    [GRAPHIC] [TIFF OMITTED] T7834.007
    
    [GRAPHIC] [TIFF OMITTED] T7834.008
    
    [GRAPHIC] [TIFF OMITTED] T7834.009
    
    [GRAPHIC] [TIFF OMITTED] T7834.010
    
    [GRAPHIC] [TIFF OMITTED] T7834.011
    
    [GRAPHIC] [TIFF OMITTED] T7834.012
    
    [GRAPHIC] [TIFF OMITTED] T7834.013
    
    [GRAPHIC] [TIFF OMITTED] T7834.014
    
    [GRAPHIC] [TIFF OMITTED] T7834.015
    
    [GRAPHIC] [TIFF OMITTED] T7834.016
    
    [GRAPHIC] [TIFF OMITTED] T7834.017
    
    [GRAPHIC] [TIFF OMITTED] T7834.018
    
    [GRAPHIC] [TIFF OMITTED] T7834.019
    
    [GRAPHIC] [TIFF OMITTED] T7834.020
    
    [GRAPHIC] [TIFF OMITTED] T7834.021
    
    [GRAPHIC] [TIFF OMITTED] T7834.022
    
    [GRAPHIC] [TIFF OMITTED] T7834.023
    
    [GRAPHIC] [TIFF OMITTED] T7834.024
    
    [GRAPHIC] [TIFF OMITTED] T7834.025
    
    [GRAPHIC] [TIFF OMITTED] T7834.026
    
    [GRAPHIC] [TIFF OMITTED] T7834.027
    
    [GRAPHIC] [TIFF OMITTED] T7834.028
    
    [GRAPHIC] [TIFF OMITTED] T7834.029
    
    [GRAPHIC] [TIFF OMITTED] T7834.030
    
    [GRAPHIC] [TIFF OMITTED] T7834.031
    
    [GRAPHIC] [TIFF OMITTED] T7834.032
    
    [GRAPHIC] [TIFF OMITTED] T7834.033
    
    [GRAPHIC] [TIFF OMITTED] T7834.034
    
    [GRAPHIC] [TIFF OMITTED] T7834.035
    
    [GRAPHIC] [TIFF OMITTED] T7834.036
    
    [GRAPHIC] [TIFF OMITTED] T7834.037
    
    [GRAPHIC] [TIFF OMITTED] T7834.038
    
    [GRAPHIC] [TIFF OMITTED] T7834.039
    
    [GRAPHIC] [TIFF OMITTED] T7834.040
    
    [GRAPHIC] [TIFF OMITTED] T7834.041
    
    [GRAPHIC] [TIFF OMITTED] T7834.042
    
    [GRAPHIC] [TIFF OMITTED] T7834.043
    
    [GRAPHIC] [TIFF OMITTED] T7834.044
    
    [GRAPHIC] [TIFF OMITTED] T7834.045
    
    [GRAPHIC] [TIFF OMITTED] T7834.046
    
    [GRAPHIC] [TIFF OMITTED] T7834.047
    
    [GRAPHIC] [TIFF OMITTED] T7834.048
    
    [GRAPHIC] [TIFF OMITTED] T7834.049
    
    [GRAPHIC] [TIFF OMITTED] T7834.050
    
    [GRAPHIC] [TIFF OMITTED] T7834.051
    
    [GRAPHIC] [TIFF OMITTED] T7834.052
    
    [GRAPHIC] [TIFF OMITTED] T7834.053
    
    [GRAPHIC] [TIFF OMITTED] T7834.054
    
    [GRAPHIC] [TIFF OMITTED] T7834.055
    
    [GRAPHIC] [TIFF OMITTED] T7834.056
    
    [GRAPHIC] [TIFF OMITTED] T7834.057
    
    [GRAPHIC] [TIFF OMITTED] T7834.058
    
    [GRAPHIC] [TIFF OMITTED] T7834.059
    
    [GRAPHIC] [TIFF OMITTED] T7834.060
    
    [GRAPHIC] [TIFF OMITTED] T7834.061
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 24, 2010

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. TAYLOR

    Mr. Natsuhara. On Jan 19, 2010, the Under Secretary of the Navy Mr. 
Robert O. Work accepted eight solar-powered water purifiers, on behalf 
of the Navy, from Quercus Trust. All eight purifers were sent to 
Afghanistan and employed by the Marines operating in the Helmand 
Province. Feedback from the Marines and Afghanis is very positive. We 
look forward to employing other similar renewable solutions that 
simplify the logistics chain and improve our combat effectiveness. [See 
page 19.]
                                 ______
                                 
           RESPONSE TO QUESTION SUBMITTED BY MS. SHEA-PORTER

    Mr. Hansen. Theater guidelines contained in U.S. Central Command 
(CENTCOM) Regulation 200-2 applicable to both Iraq and Afghanistan 
prohibit the burning of plastics in burn pits. The recent assessment 
conducted in response to a Department of the Army execution order 
(EXORD), found that plastic is being separated and recycled in theater 
when possible but that there is room for improvement, particularly in 
segregating trash from the dining facilities. The guidelines also 
require that we continue to improve solid waste disposal methods and 
move away from open burn pits, to include installing incinerators.
    Currently, there are 28 Solid Waste incinerators installed in Iraq 
and 2 more being installed. In Afghanistan there are 4 incinerators 
already operational, 17 containerized incinerators (3 Ton) being 
installed, and 45 smaller (1 Ton) containerized incinerators on the 
way. In addition, 15 larger (5 Ton) mobile incinerators are awarded and 
plans for $80M in military construction (MILCON) for 23 incinerators 
for future installation in Afghanistan.
    CENTCOM and the Department of the Army are very open to employing 
eco-friendly and renewable technologies when doing so is not cost 
prohibitive and otherwise makes sense in the contingency environment. 
Utensils made from renewable materials are cost prohibitive as the 
least expensive available costs 400% more than the plastic utensils 
currently being used. In addition, the alternative of reusing table 
utensils is limited by cost associated with the limited potable water 
supply and other sanitary conditions at sites in theater. [See page 
24.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 24, 2010

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. The American Recovery and Reinvestment Act provided 
significant funding within operation and maintenance, military 
construction, and research and development accounts for energy 
projects. Just considering the operation and maintenance funding, the 
Department of Defense identified 1,473 energy-related projects with an 
estimated cost of $1.4 billion to be executed with Recovery Act 
dollars.
    <all>  Can you quantify the energy savings or energy security 
benefits to the Department of Defense from these investments?
    <all>  Are these or other similar energy investments correlated 
with a Department-wide energy security plan?
    Dr. Robyn. DOD currently has 63% of its buildings metered and is 
working aggressively to fully meter all buildings by 2012. Until this 
effort is complete, we are very limited in our ability to quantify 
savings on these individual projects. We use engineering estimates to 
project energy savings for individual projects. Also the Services 
collect energy performance data by installation.
    The recently released Quadrennial Defense Review makes clear that 
crafting a strategic approach to energy and climate change is a high 
priority for the Department. Since 2003, the Department has reduced 
energy consumption per square foot by 10% at our permanent 
installations. DOD's strategy for energy security starts with 
establishing an enterprise-wide energy data management system to assist 
us with monitoring, measuring, managing and maintaining our 
installations at optimal performance levels. You can't manage what you 
can't measure. The DOD strategy for our energy investment is twofold. 
First we invest in making our infrastructure more energy efficient to 
reduce demand. We require new construction to meet LEED Silver design 
and all construction to be 30% better than ASHRAE standards. Secondly 
we are investing in renewable energy sources to reduce our dependence 
on fossil fuels and make us more secure from possible interruption of 
the U.S electric grid.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. MARSHALL

    Mr. Marshall. Please detail the extent to which the Department, in 
developing a strategic approach to energy efficiency and independence 
on military installations both here and abroad, took into account the 
threat of electromagnetic pulse (EMP) attacks, major weather 
calamities, and other major threats.
    Additionally, the FY10 National Defense Authorization Act directed 
the Department of Defense to develop specifications for ``installation-
wide, unified energy monitoring and utility control systems.'' Although 
the bill envisioned an installation-by-installation approach, in your 
written testimony you stated that one of the Department's key 
initiatives is to implement an ``enterprise-wide'' system.
    1.   Please provide an update on the Department's efforts to comply 
with Sec. 2481 of the FY10 NDAA.
    2.   Are you envisioning a different approach than installation-by-
installation?
    3.   Please explain how an ``enterprise-wide'' approach will 
integrate with ``installation-wide'' systems.
    4.   Please detail any delays or additional costs that will be 
incurred by focusing on an ``enterprise-wide'' approach.

    SEC. 2841. ADOPTION OF UNIFIED ENERGY MONITORING AND UTILITY 
CONTROL SYSTEM SPECIFICATION FOR MILITARY CONSTRUCTION AND MILITARY 
FAMILY HOUSING ACTIVITIES.
        (a) Adoption Required.--
                (1) In general.--Subchapter III of chapter 169 of title 
                10,
          United States Code, is amended by inserting after section 
        2866
          the following new section:
    ``Sec. 2867.   Energy monitoring and utility control system 
specification for military construction and military family housing 
activities
      ``(a) Adoption of Department-wide, Open Protocol, Energy 
Monitoring and Utility Control System Specification.--(1) The Secretary 
of Defense shall adopt an open protocol energy monitoring and utility 
control system specification for use throughout the Department of 
Defense in connection with a military construction project, military 
family housing activity, or other activity under this chapter for the 
purpose of monitoring and controlling, with respect to the project or 
activity, the items specified in paragraph (2) with the goal of 
establishing installation-wide energy monitoring and utility control 
systems.
      ``(2) The energy monitoring and utility control system 
specification required by paragraph (1) shall cover the following:
                ``(A) Utilities and energy usage, including 
                electricity, gas, steam, and water usage.
                ``(B) Indoor environments, including temperature and 
                humidity levels.
                ``(C) Heating, ventilation, and cooling components.
                ``(D) Central plant equipment.
                ``(E) Renewable energy generation systems.
                ``(F) Lighting systems.
                ``(G) Power distribution networks.
    Dr. Robyn. Every installation has an installation disaster response 
and recovery plan that identifies critical missions and the energy and 
resources to recover missions interrupted by natural disaster, physical 
attack and a variety of other threats. Threats and responses due to 
electromagnetic pulses for some critical assets are known. Annual 
exercises are required at each installation to determine the 
proficiency of the installation's people and infrastructure to respond 
to an attack.
    DOD recognizes that installation energy data is not collected, 
analyzed and reported in the same manner across the Department. We are 
working to develop an energy monitoring and utility control system 
specification as required by the 2010 National Defense Authorization 
Act. Currently we are reviewing concerns from the individual Military 
Departments that the specification be consistent with existing systems 
currently in use. Following this review we will produce an open-
protocol specification to be approved by a Tri-Service Unified Facility 
Criteria (UFC) Board. Our efforts to develop an enterprise-wide energy 
data management system will not slow implementation of this 
specification.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. The recently released Quadrennial Defense Review 
stated that climate change and energy will play significant roles in 
the future security environment, that climate change, energy security, 
and economic stability are inextricably linked, and that the National 
Intelligence Council has judged that more than 30 military 
installations, including those on Guam, are already facing elevated 
levels of risk from rising sea levels. It also notes that one of the 
reasons the Department is increasing its use of renewable energy 
supplies is to reduce greenhouse gas emissions in support of U.S. 
climate change initiatives.
    How important is the shift by DOD to renewable energy, including 
energy produced on DOD lands, to your overall strategy to address 
climate change?
    I am concerned about whether DOD is really taking the serious 
steps, and programming the resources, necessary to successfully adapt 
to the impacts of climate change in terms of both U.S. military 
installations like those on Guam and in terms of working with U.S. and 
international partners to help fragile states, especially coastal 
states, adapt to those changes.
    In addition to your efforts regarding renewable energy, what are 
the other steps DOD is taking both domestically and internationally 
with regard to climate change adaptation, and what is your sense of the 
level of resource commitment that will take over the FYDP?
    Dr. Robyn. Although other U.S. government agencies have the lead on 
responding to climate change, DOD has an opportunity to exhibit 
leadership on the issue. To this end, under Executive Order 13514, DOD 
recently established an aggressive 34% reduction target from facilities 
greenhouse gas emissions from 2008 to 2020. Meeting this target will 
require a concerted effort to both decrease energy demand and increase 
the supply of renewable energy. DOD has been investing in renewable 
energy on its facilities for decades and to both meet the EO target as 
well as comply with statute, DOD is increasing its development of 
renewable energy resources.
    As to climate change adaptation, DOD is making significant 
investments in research and development to quantify the potential 
impacts to DOD installations and their missions and to identify 
adaptation options and strategies. These activities, as indicated in 
the Quadrenial Defense Review, are led by the Department's Strategic 
Environmental Research and Development Program. In addition, the 
Department's Defense Environmental International Cooperation Program 
will allow Combatant Commanders to cooperate on adaptation strategies 
with foreign militaries.
    Ms. Bordallo. For FY2010, the Department received more funding for 
the Energy Conservation Investment Program (ECIP) than was originally 
requested in the Administration's budget. Could you please explain how 
DOD plans to use the additional funding?
    Dr. Robyn. [The information referred to was not available at the 
time of printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS

    Ms. Giffords. When we discuss the prospects of net-zero facilities, 
does the department intend to continue investing in credits or will it 
expand its efforts to organically produce renewable energy solutions?
    Dr. Robyn. Currently, Renewable Energy Credits or Certificates 
(RECs) help DOD achieve federal renewable energy mandates under EPAct 
2005, EO 13423, EISA 2007 and 10 USC 2911 (e) for the percentage of 
renewable energy DOD produces or procures. DOD uses DOE guidance for 
how the Department accounts for the RECs in the Annual Energy 
Management Report to Congress. However, RECs do not create real, 
measurable energy security at DOD installations since a REC is an 
environmental attribute that can be purchased in a REC tradable market 
as an ``unbundled'' attribute of the actual renewable energy produced 
at one location and sold to another purchaser at another location.
    The DOD plan is to reduce energy demand through conservation and 
efficiency and increase the use and consumption of alternative energy 
and renewable energy from on-site or near-site generation sources in 
order to retain our ability to operate during prolonged grid outages. 
Under this plan, we will be reducing our purchases of RECs.
    Ms. Giffords. On-site energy generation has proven effective in 
offsetting energy use. Previous systems, for example fuel cells like 
those installed at Fort Huachuca in my District have a track record for 
creating serious cost savings that in previous years has averaged more 
than $65,000 annually.
    What kind of savings could we assume if we expanded on-site 
generation programs to all new facilities on installations?
    How could additional on-site generation be leveraged alongside LEED 
standards to achieve greater overall savings?
    Dr. Robyn. Given current technology, demand reduction provides a 
much quicker pay-back than on-site generation. We have therefore 
focused our efforts on designing and constructing to a goal of 100% 
LEED Silver. Nonetheless, we are making a significant investment in on-
site renewable projects. We have also created a test bed initiative, 
leveraging our unique building portfolio to more quickly develop 
renewable technologies. As an initial customer we can then put these 
technologies to use on our bases.

                                  <all>

</pre></body></html>
